HHS/OIG, Audit -"Determining Average Manufacturers Prices for Prescription Drugs
Under the Deficit Reduction Act of 2005,"(A-06-06-00063)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Determining Average Manufacturers Prices for Prescription Drugs
Under the Deficit Reduction Act of 2005," (A-06-06-00063)
May 30, 2006
Complete
Text of Report is available in PDF format (2.87 mb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to review the requirements for, and manner in which, manufacturers determine
(average manufacturer prices) AMPs under section 1927 of Social Security  Act.  Existing
requirements for determining certain aspects of AMPs are not clear and comprehensive, and
manufacturers methods of calculating AMPs are inconsistent.  Our discussions with industry
groups confirmed the need to clarify requirements and raised additional issues related to
the implementation of DRA provisions.
We recommended that the Secretary direct CMS, in promulgating the AMP regulation, to: (1)
clarify requirements in regard to the definition of retail class of trade and the treatment
of pharmacy benefit manager rebates and Medicaid sales; and, (2) consider addressing issues
raised by industry groups, such as: (a) administrative and service fees, (b) lagged price
concessions and returned goods, (c) the frequency of AMP reporting, (d) AMP restatements,
and (e) baseline AMP.  We also recommend that the Secretary direct CMS to: (1) issue
guidance in the near future that specifically addresses the implementation of the AMP-related
reimbursement provisions of the DRA and (2) encourage States to analyze the relationship
between AMP and pharmacy acquisition cost before using AMP for their reimbursement methodology.